WILLIAM WILBERFORCE TRAFFICKING VICTIMS 

PROTECTION REAUTHORIZATION ACT OF 2008 





     U.S. Agency for International Development 


            Office of Inspector General 


                Report to Congress 





                 January 13, 2012
Introduction

The U.S. Agency for International Development, Office of Inspector General (OIG) prepared this report
pursuant to Section 232 of the William Wilberforce Trafficking Victims Protection Reauthorization Act
of 2008 (TVPRA), Public Law 110-457 (December 23, 2008). Section 232 requires the OIG to
investigate a sample of contracts or subcontracts for which there is a heightened risk that a contractor may
engage in acts related to trafficking in persons, and to report on the fmdings of the investigations
conducted in the previous year. To meet this requirement, OIG conducted two reviews that were audit­
related in the past year related to trafficking in persons, which are summarized in this report. These
reviews are not investigations, which we defme as law enforcement activities carried out by USAID OIG.

Summary of OIG Activities for 2011

One OIG review dealt with USAIDlEgypt's controls to help prevent trafficking in persons and its
contractors' compliance with the TVPRA. A second review covered the Millennium Challenge
Corporation's (MCC) programmatic efforts to help address and prevent trafficking in persons. Each
review included an examination of a sample of contracts for their respective agencies. In 2011, ~iG's
Office of Investigations conducted one criminal law enforcement investigation related to trafficking in
persons. The allegation was found to be unsubstantiated

The ~iG's Review ofUSAIDIEgypt's Contractors' Compliance With the Trafficking Victims Protection
Reauthorization Act of 2008 (Report No. 6-263-l2-00l-S), issued on December 29, 2011, reviewed 15
USAIDlEgypt contracts ongoing as of September 30,2011, and found no indication of any trafficking in
persons violations. USAIDlEgypt had no contracts that employed significant numbers of staff in low­
wage, low-skill positions. In fact, only one contract, valued at $1.5 million, involved low-wage, low-skill
workers, with building repair and maintenance services procured through a subcontractor. Based on
interviews with employees, site visits, and a review of employment contracts and pay records, OIG found
no indication of human trafficking. However, the subcontract omitted the required Federal Acquisition
Regulation (FAR) clause prohibiting human trafficking; the clause was added after OIG began its
fieldwork.

In addition, as of September 30, 2011, 60 percent (9 out of 15) ofUSAIDlEgypt's active contracts valued
at $130.5 million did not include the required FAR clause related to trafficking in persons. Inclusion of
the clause is a key component to ensuring contractors' awareness of the U.S. Government's policy on
trafficking in persons and of their obligations as a USAID contractor. The mission does not routinely
request or receive modifications to USAID contracts managed by USAID's Office of Acquisition and
Assistance (OAA) in Washington, D.C., under which USAIDlEgypt has task orders, including
modifications related to trafficking in persons. Also, most USAIDlEgypt contracting officer's technical
representatives (COTR) had not received any information or training on trafficking in persons until the
mission's Fiscal Year 2011 ethics training. The review found that many COTRs and at least one
contractor were not aware of the U.S. Government's policy on trafficking in persons or related FAR
requirements. Moreover, two implementers, whose contracts included the FAR clause, had nonetheless
failed to inform their employees about the U.S. Government's zero-tolerance policy for human trafficking
and actions that would be taken if they violated the policy. A third implementer also had failed to inform
its employees following the addition ofthe FAR clause to its contract.
In January 2011, USAID issued its Counter Trafficking in Persons Code of Conduct and provided
guidance on the code's implementation in April 2011. In response, USAID/Egypt appointed a COTR as
the Counter Trafficking in Persons Coordinator in May 2011 and began to educate staff through Regional
Legal Advisors' ethics training and other briefmgs. Though not required, USAID/Egypt also began to
notify potential new employees of the code of conduct.

OIG made four recommendations for USAID/Egypt: (1) ensure its contracts include the required FAR
clause; (2) collaborate with USAID's OAA to establish a mechanism that would provide missions with
information about modifications to contracts under which the mission has task orders; (3) remind
contracting officers to exercise ongoing oversight of contracts; and (4) remind contracting officers to
provide COTRs with copies of any contract modifications. Management decisions have been reached on
all four recommendations, and final action has been taken on one.

The OIG's Review of the Millennium Challenge Corporation's Approach to Address and Deter
Trafficking in Persons (Report No. M-000-12-001-S), issued December 20, 2011, examined 17 MCC
infrastructure contracts valued at about $397 million covering activities in El Salvador, Ghana, Mali, and
Namibia. Of the 17 contracts, 16 had provisions prohibiting child labor, sex trafficking, and prostitution,
while one contract contained a clause against child labor with a second clause indirectly covering
trafficking in persons.

The review also found that MCC had designed controls to address trafficking in persons. MCC appointed
specific staff members to address trafficking in persons in its programs. Under its "Holistic and Risk­
based Approach to Managing the Risk of Trafficking in Persons," MCC developed five components to
help address risks related to trafficking in persons: (1) a zero-tolerance policy; (2) a requirement in certain
contracts and bidding documents that contractors certify they do not engage in trafficking in persons; (3)
the exclusion of countries with the lowest ranking (Tier 3 in the Department of State's Trafficking in
Persons Report) from MCC's country candidate list; (4) consideration of trafficking-related risks when
developing compacts; and (5) regular communication among MCC staff and with U.S. embassy
personnel, and contact with other U.S. Government agencies, donors, nongovernmental organizations,
and contractors to refine MCC's approach to trafficking in persons.

Under its trafficking in persons guidance, MCC can provide warnings to countries that show a pattern of
behavior inconsistent with its selection criteria. If MCC's warning letters are not acted upon, MCC may
partially or fully suspend or terminate a country's eligibility for its programs. However, MCC had not
issued warning letters to three countries whose rankings in the State Department's 2011 Trafficking in
Persons Report did not improve or were downgraded. Tanzania and Niger ranked as Tier 2 Watch List
for the second consecutive year and Liberia was downgraded from Tier 2 to Tier 2 Watch List. Under the
TVRPA, countries ranked as Tier 2 Watch List for two consecutive years will be ranked Tier 3 in the
third year, unless the President waives this requirement. Unavailability of key staff contributed to the
delay in developing a communication plan-and therefore the warning letters-for Tanzania, Niger, and
Liberia.

The review also found that MCC continued to provide full compact funding to countries that ranked as
Tier 2 Watch List for two or more consecutive years, such as Mali. In this case, MCC elected to comply
with a waiver by the Secretary of State and to not subject the country to sanctions. The review also noted
that MCC had addressed concerns raised in an earlier OIG report by requiring trafficking in persons
language in small works contracts as well as large works and consulting services contracts. l Our review
of seven small works contracts, valued at about $2.6 million, and four bidding documents, verified use of
the required language. MCC also had sent letters to three countries regarding their rankings, following a
finding in our previous report.

OIG recommended that MCC fmalize and implement a communication plan for Tanzania, Niger, and
Liberia to address each country's eligibility concerns. A management decision has been reached and final
action taken on this recommendation.

Lastly, we did not refer any cases for prosecution for trafficking in persons violations in 2011.




1 USAID/OIG, Review ofthe Millennium Challenge Corporation's Approach to Addressing and Deterring
Trafficking in Persons, Report No. M-000-II-00l-S, January 12,2011.
U.S. Agency for International Development 

       Office of Inspector General 

       1300 Pennsylvania Avenue NW 

          Washington. DC 20523 

           Tel.: 202-712-1 150 

            Fax: 202-216-3047 

            www.usaid.gov/oig
